           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        THE SOCIAL SECURITY
         ADMINISTRATION’S
      COMPUTATION OF DELAYED
        RETIREMENT CREDITS

    September 2008   A-09-07-17135




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      September 22, 2008                                                 Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Computation of Delayed Retirement Credits
           (A-09-07-17135)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA)
           accurately adjusted benefits of retired wage earners for delayed retirement credits
           (DRC).

           BACKGROUND

           The Social Security Act provides that individuals who delay their retirement beyond full
                                                                                          1
           retirement age (FRA) will receive an increase in their monthly benefit amount. The
           increase in the monthly benefit, known as a DRC, is earned beginning with the month a
           wage earner attains FRA and ending with the month the wage earner attains age 70. A
           DRC is earned for each month a wage earner was fully insured and eligible for
           retirement benefits, but benefits were not paid because an application was not filed,
           SSA applied the annual earnings test or the foreign work test, or at the wage earner’s
                     2
           request. The DRC increases monthly benefits by a maximum of 7.5 percent per year
           for retired wage earners who attain FRA in 2008. 3

           To ensure the accuracy of the DRCs awarded to retired wage earners, SSA performs
           an annual DRC Roundup Operation to identify beneficiaries who may be due an
           increase in their monthly benefits because of DRCs. During this operation, SSA
           compares the dates an individual qualified for retirement benefits, started receiving their
           benefit, and attained FRA to determine the appropriate number of DRCs the beneficiary
           is entitled to receive.



           1
               The Social Security Act § 202(w), 42 U.S.C. § 402(w).
           2
               SSA, Program Operations Manual System (POMS), RS 00615.690A.2.a.
           3
               SSA, POMS, RS 00615.692C and D.
Page 2 - The Commissioner
We obtained two data extracts from one segment of SSA’s Master Beneficiary Record
(MBR). Each segment represents 5 percent of the entire MBR. The first extract from
the 5-percent segment identified 39,731 retired wage earners in current pay status who
became entitled to retirement benefits between January 1999 and September 2006,
and were granted at least 1 DRC. The second extract from the segment identified
70 retired wage earners in current pay status who became entitled to retirement
benefits between January 1999 and December 2004, and started receiving benefits
after attaining FRA, but their benefits were not adjusted for DRCs. We selected a
random sample of 275 beneficiaries for review from the first data extract, and we
reviewed all 70 of the beneficiaries identified by the second data extract (see
Appendix C). 4

RESULTS OF REVIEW
We found that SSA was generally effective in adjusting the monthly benefits for retired
wage earners who were eligible for DRCs. However, we identified the following areas
for improvement.

•   Our review of a random sample of 275 retired wage earners who had at least 1 DRC
    found that SSA made proper payments to 269 (98 percent). The remaining
    six beneficiaries were improperly paid $2,319 because an incorrect number of DRCs
    was granted. Of the six improperly paid beneficiaries, four were overpaid $2,135
    and two were underpaid $184.
•   Our review of 70 retired wage earners who were initially entitled to benefits after
    FRA, but their benefits were not adjusted for DRCs, disclosed that 51 (73 percent)
    were underpaid $82,826. Based on our sample results, we estimate there are
    1,020 retired wage earners who were underpaid approximately $1.7 million (see
    Appendix C).
These errors occurred because monthly benefit amounts were incorrectly calculated or
the DRC Roundup Operation did not always identify retired wage earners who were
eligible for DRCs.




4
  The MBR is divided into 20 segments, with each segment representing 5 percent of all records. We
identified 39,731 beneficiaries who were granted at least 1 DRC from 1 segment of the MBR. As a result,
we estimate that 794,620 beneficiaries (39,731 x 20) were granted at least 1 DRC. In addition, we
identified a population of 70 beneficiaries whose date of initial entitlement was after FRA, but their benefits
were not adjusted for DRCs. As a result, we estimate that 1,400 beneficiaries were initially entitled to
benefits after FRA, but their benefits were not adjusted for DRCs.
Page 3 - The Commissioner
BENEFICIARIES WHO RECEIVED DRCS WERE GENERALLY PAID CORRECTLY

A DRC is earned for each month a retired wage earner attains FRA and ending with the
month the wage earner attains age 70. A DRC is earned for each month the wage
earner is fully insured and eligible for retirement benefits, but does not receive them
because an application was not filed; benefits were due, but not paid because of the
annual earnings test, the foreign work test; or benefits were not paid at the wage
                                  5
earner’s request to earn DRCs.

Based on our review of a random sample of 275 retired wage earners who had at least
1 DRC, we found that SSA correctly granted DRCs and adjusted the monthly benefits
for 269 (98 percent) beneficiaries. The remaining six beneficiaries were improperly paid
$2,319. These improper payments occurred because SSA granted DRCs the
beneficiaries were not eligible to receive or the DRCs were incorrectly calculated. For
example, SSA incorrectly granted 1 beneficiary 27 DRCs based on the beneficiary’s
attainment of FRA in September 1999. However, the beneficiary was not eligible for
DRCs until October 2001, the date the beneficiary was fully insured and eligible for
retirement benefits. Therefore, the beneficiary was overpaid $1,457 through
November 2007.

BENEFICIARIES WHO SHOULD BE GRANTED ADDITIONAL DRCS

The annual DRC Roundup Operation is designed to ensure the accuracy of the DRCs
that should be granted to retired wage earners. We estimate there were about
1,400 retired wage earners in current pay status who were initially entitled to retirement
benefits after attaining FRA, but their benefits were not adjusted for DRCs. Based on
our review of the 70 retired wage earners we identified, we determined that SSA did not
always grant DRCs and adjust the monthly benefits for retired wage earners.

These errors occurred because monthly benefit amounts were incorrectly calculated or
the DRC Roundup Operation did not identify retired wage earners who were eligible for
DRCs. 6 As a result, we found that SSA underpaid $82,826 to 51 beneficiaries in our
sample. Based on our sample results, we estimate that SSA underpaid about
$1.7 million to approximately 1,020 beneficiaries (see Appendix C).

For example, one retired wage earner was entitled to an increase in retirement benefits
due to her delayed retirement. At the time, SSA correctly identified the beneficiary was
entitled to 60 DRCs; however, the beneficiary’s monthly benefits were not increased to
give credit for the DRCs. As a result, SSA underpaid the beneficiary $14,327 from
September 1990 to November 2007. In another example, a beneficiary was entitled to
an increase in monthly benefits due to delayed retirement. However, SSA did not


5
    SSA, POMS, RS 00615.690A.2.a.
6
 SSA staff informed us that systems changes made in June and August 2004 ensured that all retired
wage earners eligible for DRC would be properly identified.
Page 4 - The Commissioner
identify that the beneficiary was eligible for 36 DRCs and did not increase his monthly
benefits accordingly. As a result, SSA underpaid the beneficiary $2,233 from
February 2003 to November 2007.

CONCLUSION AND RECOMMENDATIONS
Our review found that SSA was generally effective in adjusting the monthly benefits for
retired wage earners who were eligible for DRCs. However, we found that SSA should
take corrective actions for those beneficiaries in our review who were not properly
granted DRCs. Specifically, we estimate that SSA underpaid about $1.7 million to
approximately 1,020 beneficiaries. Therefore, we recommend that SSA:

1. Take corrective action to pay underpayments and establish overpayments for the
   57 beneficiaries identified by our audit.

2. Identify and take corrective action on the population of retired wage earners who are
   underpaid because they are eligible for additional DRCs.

3. Remind staff of the requirements for granting DRCs and the proper adjustments to
   monthly benefit amounts.

AGENCY COMMENTS

SSA agreed with all our recommendations. See Appendix D for the text of SSA’s
comments.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology, Results and Estimates
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
DRC      Delayed Retirement Credit
FRA      Full Retirement Age
MBR      Master Beneficiary Record
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                       Appendix B

Scope and Methodology
We reviewed the provision of the Social Security Act that provides an increased
monthly benefit to retired wage earners who delay their retirement beyond full
                       1
retirement age (FRA). We obtained two data extracts from one randomly selected
segment of the Social Security Administration’s (SSA) Master Beneficiary Record
(MBR). Each segment represents 5 percent of the entire MBR. The first extract from
the 5-percent segment consisted of 39,731 retired wage earners in current pay status
who became entitled to retirement benefits between January 1999 and September
2006 and were granted at least 1 delayed retirement credit (DRC). The second extract
from the segment consisted of 70 retired wage earners in current pay status who
became entitled to retirement benefits between January 1999 and December 2004 and
started receiving benefits after attaining FRA, but their benefits were not adjusted for
DRCs. We selected a random sample of 275 beneficiaries for review from the first data
extract and reviewed all 70 of the beneficiaries identified in the second data extract.

To accomplish our objective, we

•     reviewed the applicable sections of the Social Security Act, U.S. Code, and SSA’s
      Program Operations Manual System;

•     interviewed SSA employees from the Western Program Service Center and the
      Office of Retirement and Survivors Insurance Systems; and

•     reviewed queries from SSA’s MBR and Master Earnings File.

We obtained a general understanding of the internal control structure to plan the audit
and determine the nature, extent, and timing of the tests to be performed. Specifically,
we reviewed SSA’s policies and procedures related to computing and granting DRCs.

We determined the computer-processed data from the MBR were sufficiently reliable
for our intended use. We conducted tests to determine the completeness and accuracy
of the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives.

We performed our work in Richmond, California, between February and May 2008.
The entities audited were SSA’s Offices of Operations and Systems.




1
    The Social Security Act § 202(w), 42 U.S.C. § 402(w).


                                                     B-1
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                         B-2
                                                                                 Appendix C

Sampling Methodology, Results and Estimates
We obtained two data extracts from a randomly-selected segment of the Social Security
Administration’s (SSA) Master Beneficiary Record (MBR). The first extract consisted of
retired wage earners in current pay status who became entitled to retirement benefits
between January 1999 and September 2006 and had at least one delayed retirement
credit (DRC). The second extract consisted of retired wage earners in current pay
status who became entitled to retirement benefits between January 1999 and
December 2004 and started receiving benefits after attaining full retirement age, but
their benefits were not adjusted for DRCs.

Retired Wage Earners Who Had at Least 1 DRC

Our first extract consisted of 39,731 records that were selected from 1 of the
                               1
20 segments of SSA’s MBR. We randomly selected 275 records to determine whether
SSA complied with its policies and procedures for granting DRCs for those
beneficiaries. Our review found that SSA made proper payments to 269 (98 percent) of
the beneficiaries. The remaining six beneficiaries were improperly paid $2,319 because
an incorrect number of DRCs was granted. The following tables provide the details of
our sample results.

                            Table 1 – Population and Sample Size
                         Description                                   Number of Beneficiaries
    Population Size (Data extract from 1 segment)                             39,731
    Sample Size                                                                  275

                              Table 2 – Incorrect DRCs Granted
          Description               Number of Beneficiaries               Improper Payments
    Sample Results                            6                                 $2,319




1
 The MBR is divided into 20 segments for processing and updating. Each segment represents 5 percent
of all records. We randomly selected a sample of 275 records from our population of 39,731 records that
we extracted from the 1 segment of the MBR.


                                                  C-1
Retired Wage Earners Whose Benefits Were Not Adjusted For DRCs

Our second extract consisted of 70 records that were selected from 1 of the
20 segments of SSA’s MBR. 2 We reviewed all 70 records to determine whether SSA
complied with its policies and procedures for the granting of DRCs for those
beneficiaries. Our review found that SSA underpaid $82,826 to 51 beneficiaries. The
following table provides the details of our review results and estimates.

                             Table 3 – Review Results and Estimates
           Description                 Number of Beneficiaries    Underpayments
    Review Results                                51                    $82,826
    Estimate for Entire MBR 3                  1,020                 $1,656,520




2
    Id.
3
    Represents the review results multiplied by 20 segments.


                                                    C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 11, 2008                                                    Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster         /s/ (Jim Winn for David Foster)
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, "Review of the Social Security
           Administration’s Computation of Delayed Retirement Credits" (A-09-07-17135)--
           INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "REVIEW OF THE SOCIAL SECURITY ADMINISTRATION’S
COMPUTATION OF DELAYED RETIREMENT CREDITS” (A-09-07-17135)


Thank you for the opportunity to review and comment on the draft report. We are pleased with
the report’s finding that we were generally effective in adjusting the monthly benefits for retired
wage earners who were eligible for delayed retirement credits (DRC). Below are our responses
to the specific recommendations. Our responses describe actions already taken or planned to
address the areas needing improvement.

Recommendation 1

Take corrective action to pay underpayments and establish overpayments for the
57 beneficiaries identified by the audit.

Response

We agree. Once we receive a list of the 57 beneficiaries identified by the audit, we will take
corrective action to pay underpayments and establish overpayments.

Recommendation 2

Identify and take corrective action on the population of retired wage earners who are underpaid
because they are eligible for additional DRCs.

Response

We agree. Systems enhancements made in 2004 have addressed the concerns in this
recommendation.

Recommendation 3

Remind staff of the requirements for granting DRCs and the proper adjustments to monthly
benefit amounts.

Response

We agree. We will issue training materials in September 2008 that will remind staff of the
requirements for granting DRCs and the proper adjustments to monthly benefit amounts.




                                                D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Joseph Robleto, Audit Manager, (510) 970-1737

Acknowledgments

In addition to those named above:

   Timothy E. Meinholz, Senior Auditor

   Manfei Lau, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-07-17135.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
